Credit Card Application Disclosures for Popular Bank Preferred World Mastercard issued by
Banco Popular de Puerto Rico
Interest Rates and Interest Charges

Annual Percentage Rate (APR)
for Purchases

0% introductory APR for the first 12 months.
After that, your APR will be from 13.24% to 26.24%, based on your
creditworthiness.

This APR will vary with the market based on the Prime Rate. 1
APR for Balance Transfers

APR for Cash Advances
Penalty APR and When it
Applies

0% introductory APR and 0 payment for the first 12 months. Applies to transfers
made within the first 90 days from account opening.
APR will be from 13.24% to 26.24%, based on your creditworthiness. This APR will
vary with the market based on the Prime Rate. 1
24.24% to 28.24%, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate. 1
29.99%
This APR may be applied to your account if you miss a required Minimum
Payment for a period of sixty (60) consecutive days from its Payment Due Date.
How Long Will the Penalty APR Apply?: If your APR is increased for this reason,
the Penalty Rate will remain in effect until the account becomes current and six (6)
consecutive required Minimum Payments are received on or before the Payment
Due Date.

Paying Interest

Your payment due date is at least 25 days after the close of each billing cycle. You
will not be charged interest from the time you purchased goods or services, if you
pay your full account balance by the Payment Due Date. In the event you don’t pay
the full account balance, while in Grace Period, you will not pay interest on the
amount paid for that cycle. On subsequent cycles you will not have grace period
until you pay your full account balance on time for two cycles in a row. Amounts
related to certain offers will not be taken into consideration in determining the Grace
Period, please refer to the offer terms and conditions. There is no grace period for
Balance Transfers, Convenience Checks or Cash Advances and begin to accrue
interest on the date they are posted and remain subject to Interest Charges until
paid in full.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Annual Fee

$95 Annual Fee
$0 Additional Card Fee (if applicable)

Transaction Fees
• Cash Advances and
Convenience Checks
• Balance Transfers

2% of the amount of each transaction (minimum $2; maximum $10)

• Foreign Transaction

1.4% of each transaction in U.S. dollars for MasterCard

Penalty Fees
• Returned Payment
• Late Payment

2% of the amount of each transfer (minimum $2; maximum $10)

Up to $10
Up to $38

How We Will Calculate Your Balance: We use a method called "average daily balance (including new transactions)”.
Please refer to your Agreement for more details.
Loss of Introductory APR: We may end your introductory APR and apply the corresponding transaction APR if you
close your account or if you miss a payment.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
Credit Card Agreement.

The information on card costs described is correct as February 29, 2020.
This information may have varied after this date. To verify what may have changed in this information
call 1-888-333-8930 or write to the following address:
Popular Credit Services
PO Box 363228
San Juan, Puerto Rico 00936-3228
IMPORTANT NOTICE USA PATRIOT ACT
Section 326 of the USA PATRIOT Act was effective on October 1, 2003. This law requires financial institutions to obtain,
verify, and record the information that identifies persons opening accounts. The USA government created this law as a
measure to fight terrorism and money laundering.
When you open an account:
• We will ask your name, home or street address, date of birth, social security number, and any other information
deemed necessary to allow us to positively identify you.
• We will ask to see your valid driver's license or other valid identification with photo issued by the government.
Thanks for allowing us to serve you. Confidentiality of the information gathered by Popular, Inc. will be maintained as
required under the Privacy Act.
For each billing period, the Interest Charge and APR will be determined by adding the Prime Rate, as published by The
Wall Street Journal, to a margin. The variable rates illustrated are based on a Prime Rate of 3.25% in effect March 16,
2020.
1

APPLICATION TERMS
The words “you” and “your” apply to each person who submits the application. You represent that you (1) have read the
accompanying application, and you affirm that everything you have stated is true and complete. (2) that you are a
permanent resident of the United States and that you comply with the state minimum age requirement to enter into an
agreement. You understand that you will not be able to make any changes to the terms of this application or to the Credit
Card Agreement.
By submitting this application, you authorize Banco Popular de Puerto Rico (hereinafter “us” or “our”) to (1) obtain your
credit report(s), employment history and any other information in order to approve or decline this application, service your
account, and manage our relationship with you; (2) share information about you and your account with the organization, if
any, endorsing this credit card program; (3) share with others, to the extent permitted by law, such information and our
credit experience with you; (4) directly or through any of our affiliates, or our marketing associates, monitor and/or record
any of your phone conversations with us or any of our representatives and (5) contact you at any number you have provided
to us, from which you call us, or which we obtain and believe we can reach you at, by calling or texting you including
through an automated dialer or pre-recorded messages. We may call or email you on a mobile, wireless, or similar device,
even if you are charged for it by your provider.
If we approve your application for an Account, you agree to (1) be subject to the terms of this application and the Credit
Card Agreement, as it may be amended; (2) pay and/or to be held jointly and severally liable for all charges incurred under
such terms.
Additional Disclosures for Residents of Specific States:
California Residents: As required by law, you are hereby notified that a negative credit report reflecting on your
credit record may be submitted to a credit reporting agency if you fail to fulfill the terms of your credit obligations.
Credit application for the obtainment of money, goods, labor or services shall clearly specify that the applicant, if
married, may apply for a separate account.
Delaware Residents: Service charges not in excess of those permitted by law will be charged on the outstanding
balances from month to month.
New York Residents: New York residents may contact the New York State Department of Financial Services
by telephone (1-800-342-3736) or visit its website (www.dfs.ny.gov) for free information on comparative credit
card rates, fees and grace periods.

Consumer reports may be requested in connection with your application and any resulting account and, upon
request, you will be informed whether or not a consumer report was requested, and if such report was requested,
informed of the name and address of the consumer reporting agency that furnished the report.
Oregon Residents: A service charge will be computed on the outstanding balance for each month (which need
not be calendar month) or other regular period agreed upon, the schedule or rate by which the service charge will
be computed, and that the buyer may at any time pay the total unpaid balance.
Ohio Residents: The Ohio laws against discrimination require that all creditors make credit equally available to
all credit worthy customers, and that credit reporting agencies maintain separate credit histories on each individual
upon request. The Ohio Civil Rights Commission administers compliance with this law.
Rhode Island Residents: A consumer credit report may be ordered in connection with the processing of an
application, or subsequently for purposes of review or collection of the account, increasing the credit line on the
account, or other legitimate purposes associated with the account.
Utah Residents: As required by Utah law, you are hereby notified that a negative credit report reflecting on your
credit record may be submitted to a credit reporting agency if you fail to fulfill the terms of your credit obligations.
Vermont Residents: We may obtain credit reports or other information about you in connection with evaluating your loan
application. We may also obtain additional credit reports or other information about you in connection with the same
transaction or extension of credit, for the purpose of reviewing your account, increasing the credit line on your account, for
the purpose of taking collection action on your account, or for other legitimate purposes associated with your account.
Wisconsin Residents: No provision of a marital property agreement, a unilateral statement under Section 766.59 of the
Wisconsin Statutes, or a court decree under Section 766.70 of the Wisconsin Statutes, adversely affects the interest of the
creditor unless the creditor, prior to the time the credit is granted, is furnished a copy of the agreement, statement or decree
or has actual knowledge of the adverse provision when the obligation to the creditor is incurred. We may give notice of
the opening of any credit account to your spouse and married Wisconsin residents must provide their spouse’s name and
address to us at: Popular Credit Services PO Box 363228 San Juan, Puerto Rico 00936-3228. If you are a married
Wisconsin resident, credit extended under this account will be incurred in the interest of your marriage or family.

